TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                       The Offer in Compromise Program Is
                      Beneficial but Needs to Be Used More
                       Efficiently in the Collection of Taxes



                                           July 17, 2006

                              Reference Number: 2006-30-100




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information


 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                   July 17, 2006


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – The Offer in Compromise Program Is Beneficial
                               but Needs to Be Used More Efficiently in the Collection of Taxes
                               (Audit # 200530005)

 This report presents the results of our review of the Offer in Compromise1 (OIC) program. The
 overall objective of this review was to determine whether the OIC program efficiently and
 effectively collects tax liabilities that may not be otherwise collected and whether the taxpayers
 remain compliant once an offer is accepted.2

 Synopsis
 The OIC program3 provides taxpayers and the Internal Revenue Service (IRS) with a collection
 alternative when it is unlikely the taxpayers can fully pay outstanding tax liabilities or the
 payment of those liabilities could cause an economic hardship. Although the program as
 implemented by the IRS is expensive to administer and burdensome for taxpayers, it has benefits
 for both the IRS and the taxpayer. However, the IRS accepts only a small portion of the offers
 submitted (24 percent for Fiscal Years (FY) 1996 through 2005).



 1
   Appendix VII includes definitions of terms used in this report.
 2
   Since Fiscal Year 1999, we have conducted a series of reviews to evaluate the OIC program. Reports from those
 reviews are listed in Appendix VI. The purpose of this review was to provide an overall assessment of the
 efficiency and effectiveness of the OIC program. This review includes data and results reported in prior audits of
 the OIC program but also presents additional information about the OIC program’s costs and benefits, taxpayer
 compliance after terms of the accepted offers are completed, and taxpayer compliance when offers were not
 accepted.
 3
   The OIC program is also referred to as the offer program in this report.
                The Offer in Compromise Program Is Beneficial but Needs to Be
                        Used More Efficiently in the Collection of Taxes



The OIC program generated direct revenue in excess of the direct cost of administering the
program. In addition, many taxpayers who had their offers accepted took advantage of the
“fresh” start toward compliance and remained compliant both during and upon completion of
offer monitoring.
The offer program could, however, be more effective at getting the appropriate taxpayers to
apply for the program. Between FYs 1996 and 2005, approximately 50 percent of about
1.1 million offers closed either did not meet the preconditions of filing an offer or were returned
to the taxpayer (e.g., for missing information) during the offer evaluation. This increases the IRS
workload because the IRS must evaluate processing requirements for all offers received and
often must take other actions before the offer evaluation can begin (e.g., requesting information
not submitted with the offer). Frustration and burden is increased for those taxpayers whose
offers are returned, and the IRS’ service to other taxpayers in the offer program is affected. The
high rates of returned offers occurred because requirements of the OIC program were not always
clear to taxpayers.
The financial analysis used in the offer evaluation could also be improved. The full evaluation
of an offer involves indepth review of the taxpayer’s assets and ability to pay. This process is
complex, requiring IRS employees to pay close attention to details and to make numerous
calculations. We found errors on 32 percent of the 187 cases reviewed. These errors affected
the outcome of 13 percent of the accepted offers reviewed but did not change the final decision
in any of the rejected or withdrawn offers.
The IRS should also more effectively use financial information developed during an offer
evaluation. When the offer evaluation results in a decision not to accept, the IRS generally
returns the taxpayer’s delinquent account to the normal collection process. The systemic
processes involved, in effect, suspend the IRS’ contact with the taxpayers while accounts await
assignment to other collection functions. In some instances, due to IRS collection priorities and
workload, the taxpayers’ accounts may not receive the IRS’ attention other than through routine
notice procedures. Through this process, the information developed in the offer evaluation may
not be associated with collection actions taken by other IRS functions.

Recommendations
The Commissioner, Small Business/Self-Employed (SB/SE) Division, should develop a strategy
to identify potential candidates for the OIC program and then determine how to get these
taxpayers into the program; provide a payment matrix, similar to the Payment Options
Comparison Chart, to show the payment alternatives and provide examples of when the offer
program should be used; and develop an Internet application for the Offer in Compromise
(Form 656), Collection Information Statement for Wage Earners and Self-Employed Individuals
(Form 433-A), and Collection Information Statement for Businesses (Forms 433-B) to screen out
taxpayers whose offers are not-processable and to alert taxpayers about what documents must be
                                                                                                    2
                The Offer in Compromise Program Is Beneficial but Needs to Be
                        Used More Efficiently in the Collection of Taxes



submitted to the IRS. Finally, the Commissioner, SB/SE Division, should evaluate the
effectiveness of the Centralized Offer in Compromise sites’ collection efforts on accounts for
which offers were not accepted and determine whether collections from these cases are
comparable to results achieved by Automated Collection System collections and whether
resources should be used to produce collections on these cases.

Response
IRS management agreed with three of our four recommendations and has initiated corrective
actions on those recommendations. The IRS is conducting a pilot to evaluate whether taxpayers
who are in compliance and whose accounts are in currently not collectible status are good
candidates for the OIC program. The IRS has identified a target population and will be
providing the taxpayers with the information necessary to submit an OIC. To assist taxpayers in
making an informed decision, the IRS will provide taxpayers with information on payment
alternatives in a revised Form 656 and will include this information on the IRS Internet site. In
addition, the IRS is evaluating the use of a Hand-Off Unit at the Brookhaven, New York, campus
to initiate collection procedures on rejected or withdrawn cases. The IRS will evaluate the
effectiveness of this Unit through operational reviews and will determine whether the Unit
should be made permanent.
However, IRS management believes implementation of an Internet application for the OIC
program is premature. The IRS is developing an Internet application for installment agreements;
once that application is fully functional, the IRS will evaluate the feasibility and
cost-effectiveness of similar applications for other programs, including the OIC program. We
agree with the IRS’ decision to evaluate the feasibility and cost-effectiveness of an Internet
application on installment agreements prior to developing an Internet application for the OIC
program. This will benefit both the IRS and taxpayers through reduced development and
implementation costs. Management’s complete response to the draft report is included as
Appendix VIII.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs), at 202-622-8500.




                                                                                                 3
                      The Offer in Compromise Program Is Beneficial but Needs to Be
                              Used More Efficiently in the Collection of Taxes




                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Offer in Compromise Program Is Costly to Both Taxpayers
          and the Federal Government; However, This Program Has Benefits
          for Both .........................................................................................................Page 3
          Various Program Changes Over the Past Several Years Affected
          Offer in Compromise Inventory and Timeliness of Processing....................Page 8
          Improvement Is Needed in Attracting Potential Candidates for the
          Offer in Compromise Program .....................................................................Page 13
                    Recommendations 1 and 2: ..............................................Page 18

                    Recommendation 3: .................................................................. Page 19

          Inconsistent Financial Analyses Could Alter Offer in Compromise
          Decisions.......................................................................................................Page 19
          Better Use of Financial Analysis Is Needed ................................................Page 22
                    Recommendation 4:........................................................Page 26


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 27
          Appendix II – Major Contributors to This Report ........................................Page 32
          Appendix III – Report Distribution List .......................................................Page 33
          Appendix IV – Reasons Offers in Compromise Are Returned to
          Taxpayers......................................................................................................Page 34
          Appendix V – Comparison of Centralized Offer in Compromise
          Sites With Field Offer Groups ......................................................................Page 37
          Appendix VI – Related Treasury Inspector General for
          Tax Administration Audit Reports................................................................Page 42
          The Offer in Compromise Program Is Beneficial but Needs to Be
                  Used More Efficiently in the Collection of Taxes



Appendix VII – Glossary of Terms ..............................................................Page 43
Appendix VIII – Management’s Response to the Draft Report ...................Page 46
                      The Offer in Compromise Program Is Beneficial but Needs to Be
                              Used More Efficiently in the Collection of Taxes




                                                Background

The Internal Revenue Service (IRS) is responsible for collecting taxes when taxpayers file tax
returns but do not fully pay the tax liabilities. The IRS has the authority to settle or compromise
Federal tax liabilities by accepting less than full payment under certain circumstances. This is
accomplished through an Offer in Compromise (OIC) (Form 656). The OIC is an agreement
between a taxpayer and the Federal Government that settles a tax liability for payment of less
than the full amount owed. Currently, the IRS is authorized to compromise a liability on any one
of three grounds:
       •   Doubt As to Collectibility (DATC) – the taxpayer’s assets and income are less than the
           full amount of the liability.
       •   Effective Tax Administration (ETA) – although collection in full could be achieved,
           collection of the full liability would cause the taxpayer economic hardship or inequitable
           treatment.
       •   Doubt As to Liability – there is a genuine dispute as to the existence or amount of the
           correct tax liability under the law.
A taxpayer initiates the OIC process by submitting a Form 656. For offers filed on the grounds
of DATC or ETA, the IRS requires the taxpayer to also complete a collection information
statement and provide supporting documents, such as wage and earning statements, to verify
information reported on the financial statements. The IRS requires the taxpayer to complete a
financial statement and provide documents to verify the amounts reported on the financial
statement. The IRS evaluates the acceptability of each offer by calculating the reasonable
collection potential (RCP) based on the financial information provided by the taxpayer and some
internal sources (e.g., the Integrated Data Retrieval System) and by considering the taxpayer’s
special circumstances.
To maximize revenue, the OIC program must provide flexibility to taxpayers in the evaluation of
offers while ensuring offers are granted to legitimate candidates. A recent poll by the IRS
Oversight Board shows that a growing number of adults are not tolerant of any cheating on taxes.
An overwhelming majority of the United States adults believe it is the duty of all Americans to
pay their taxes.
Since Fiscal Year (FY) 1999, we have conducted a series of reviews to evaluate the OIC
program.1 Those reviews were based upon concerns of the IRS Commissioner, the IRS
Oversight Board, and/or Congress. Reports from the prior reviews are listed in Appendix VI.


1
    The OIC program is also referred to as the offer program in this report.
                                                                                               Page 1
                The Offer in Compromise Program Is Beneficial but Needs to Be
                        Used More Efficiently in the Collection of Taxes



The purpose of this review was to provide an overall assessment of the efficiency and
effectiveness of the program. This review includes data and results reported in prior audits of the
OIC program but also presents additional information about the OIC program’s costs and
benefits, taxpayer compliance after terms of the accepted offers are completed, and taxpayer
compliance when offers were not accepted.
This review was performed at the IRS National Headquarters in New Carrollton, Maryland, in
the Office of Campus Filing and Payment Compliance of the Small Business/Self-Employed
(SB/SE) Division during the period December 2004 through January 2006. The audit was
conducted in accordance with Government Auditing Standards. Detailed information on our
audit objective, scope, and methodology is presented in Appendix I. Major contributors to the
report are listed in Appendix II, and a Glossary of Terms is included in Appendix VII.




                                                                                            Page 2
                The Offer in Compromise Program Is Beneficial but Needs to Be
                        Used More Efficiently in the Collection of Taxes




                                 Results of Review

The Offer in Compromise Program Is Costly to Both Taxpayers and
the Federal Government; However, This Program Has Benefits for
Both
The IRS’ goal for the OIC program is to collect what is reasonable at the least cost, at the earliest
possible time, and to promote future filing and payment compliance. Taxpayers whose offers are
accepted receive the benefit of a “fresh” start toward compliance. The full benefit of the fresh
start is generally realized upon payment of the offer amount and completion of a 5-year period of
postcompliance or until the offer amount is paid in full, whichever is longer. The IRS writes off
the remaining unpaid tax liabilities, penalties, and interest. However, the OIC program has
significant costs to both taxpayers and the Federal Government.
   •   The program includes costs of taxpayer burden in terms of preparation of the applicable
       OIC forms, gathering required documentation for the offer, and the impact of IRS
       processing time. In addition, a significant number of taxpayers who enter the OIC
       program do not have their offers accepted.
   •   The Federal Government’s cost for administering the program includes direct labor
       involved in processing offers and monitoring the terms of accepted offers. The IRS
       estimated that even the simplest offer request costs approximately $500 to process, and a
       complex offer costs much more.
The OIC program generated direct revenue in excess of the direct cost of administering the
program. In addition, many taxpayers who took advantage of the fresh start toward compliance
remained compliant both during and upon completion of offer monitoring.

Taxpayer cost and benefits of the offer program
Taxpayers initiate the OIC process by submitting a Form 656. For offers filed on the grounds of
DATC or ETA, the IRS requires the taxpayer to complete a financial statement and either pay a
$150 application fee or prepare an Income Certification for Offer in Compromise Application
Fee (Form 656-A). A substantial amount of supporting documentation is also required, which
may seem burdensome to taxpayers but is necessary for the IRS to reach the proper decision to
accept or reject the offer. The documentation required is dependent upon the information on the
financial statement as prepared by the taxpayer or the information developed by the IRS during
the offer evaluation. The supporting documentation required may include:



                                                                                              Page 3
                   The Offer in Compromise Program Is Beneficial but Needs to Be
                           Used More Efficiently in the Collection of Taxes



    •    Wage, earning, or income statements.
    •    Bank statements.
    •    Support for expenses (e.g., personal expenses such as health care).
    •    Court-ordered payments (e.g., child care, alimony).
    •    Loan information (e.g., mortgage, automobile loans) including payment information and
         loan balance.
In addition to the amount of paperwork required, a 2003 Nationwide Tax Forum focus group
with practitioners indicated that their biggest problem with the OIC program was the IRS delays2
in administrating the program. However, Figure 1 shows the timeliness of offer processing has
generally improved since FY 2001. During FY 2002, over 28,400 offers were in process for
over 12 months. This declined to approximately 8,700 offers in FY 2005 (a decrease of
approximately 69 percent). However, offers closed during FY 2005 that were in process for over
12 months continue to represent a substantial cost in terms of time to approximately 13 percent
of taxpayers in the offer program.
         Figure 1: Age of Processable Dispositions - FYs 2001 Through 20053

                 100%
                                                            16,806         14,655           8,739
                  90%         23,917         28,424
                  80%
                                                                                           17,793
                  70%                                       29,492          23,633
                  60%                        39,876
                              41,609
                  50%
                  40%
                  30%                                       60,114          47,111         42,098
                  20%         31,487         41,894
                  10%
                   0%
                            FY 2001        FY 2002        FY 2003         FY 2004        FY 2005

                            0-6 Months       More than 6 Months-12 Months            Over 12 Months


          Source: Treasury Inspector General for Tax Administration (TIGTA) analysis of Collection
          Reports 5000-108 (Monthly Report of Offer in Compromise Activity).




2
  Customer Satisfaction Issues of Practitioners, 2003 Nationwide Tax Forum Focus Groups, Project 01.08.005.03
Brooklyn/Hartford & Seattle/San Jose Research.
3
  For FY 2005, the IRS offer data include not-processable offers in the age of dispositions. These data showed that,
during FY 2005, 64,811 of the dispositions were closed in 6 or fewer months. For comparability with prior fiscal
years, we excluded 22,713 not-processable offers from the number of offers disposed of in 6 or fewer months (to
arrive at the figure shown in the last column of Figure 1).
                                                                                                             Page 4
                  The Offer in Compromise Program Is Beneficial but Needs to Be
                          Used More Efficiently in the Collection of Taxes



The benefit to those taxpayers whose offers are accepted can be significant. IRS data show that,
during FY 2005, over 19,000 offers (totaling almost $326 million) were accepted for liabilities of
$1.9 billion. Figure 2 shows a comparison of the offer amount to the liabilities compromised for
FYs 1996 through 2005. For the 10-year period, the IRS accepted almost 270,000 offers,
compromising $21.6 billion in balances due in exchange for offers totaling almost $3.0 billion.
These accepted offers represent approximately 14 cents paid per dollar owed.
            Figure 2: Comparison of Offer Amounts Accepted to Liabilities
            Compromised - FYs 1996 Through 2005 (in millions of dollars)

         $2,750
         $2,500
         $2,250
         $2,000
         $1,750
         $1,500
         $1,250
         $1,000
          $750
          $500
          $250
            $0
                  FY 1996 FY 1997 FY 1998 FY 1999   FY 2000 FY 2001 FY 2002 FY 2003     FY 2004 FY 2005

                                     Offer Amount Accepted    Liabilities Compromised

        Source: TIGTA analysis of Collection Reports 5000-108.

Federal Government cost and benefits of offer processing
The Federal Government’s cost for administering the OIC program includes direct labor for
processing offers. The labor costs include:
   •   The compliance functions at the Centralized Offer in Compromise (COIC) sites and the
       field offer groups. These functions are responsible for evaluating offers.
   •   The IRS Campus OIC units. The OIC units are responsible for monitoring accepted
       OICs to ensure taxpayers comply with the OIC payment terms and the 5-year compliance
       requirements of the accepted offers.
   •   The IRS Office of Appeals. The Appeals function is responsible for reviewing rejected
       offers for which taxpayers appeal the decision and for evaluating offers filed during the
       collection due process.
   •   The IRS Office of Chief Counsel. The Office of Chief Counsel is responsible for
       reviewing accepted offers with liabilities of $50,000 or more. The purpose of the review

                                                                                                          Page 5
                  The Offer in Compromise Program Is Beneficial but Needs to Be
                          Used More Efficiently in the Collection of Taxes



        is to determine whether the offers meet the legal requirements for compromise and
        conform to IRS policy and procedures.
We identified the cost of labor applied by the IRS compliance functions for the field offer
groups, the COIC sites, and the IRS campuses for accepted offer monitoring for FY 2004. We
did not obtain the cost of labor applied to the offer program in the IRS Office of Appeals or the
IRS Office of Chief Counsel because the necessary data were not readily available. In FY 2004,
the 3 compliance functions used approximately 1,346 Full-Time Equivalents (FTE) costing
$78.5 million to evaluate and monitor offers.
The benefits for the Federal Government from the OIC program include revenue received from
offer application fees, offer payments, refund recoupments, and collateral payments. During
FY 2004, the revenue from the program exceeded the cost. As shown in Figure 3, the IRS labor
cost for the 3 compliance functions was approximately $78.5 million, while direct revenue from
the compliance functions was approximately $201.7 million. Although this represents a return of
less than $3 for each dollar spent, it does not include future filing and payment compliance
discussed later in this report.
                 Figure 3: OIC Program Cost Versus Benefits for FY 2004
                                  Cost                                           Benefits
                   Function              FTE        Cost              Revenue Item            Amount
         COIC Sites                       633    $ 34,023,000   Offer Payments              $ 180,608,000
         Field Offer Groups               365      27,585,000   Refund Recoupment              13,718,000
         IRS Campus OIC Units             348      16,939,000   Application Fees Paid           6,928,000
                                                                Collateral Payments               453,000
          Estimated Labor Costs          1,346   $ 78,547,000    Estimated Revenue          $ 201,707,000
        Source: TIGTA analysis of IRS cost and benefits data obtained from the SB/SE Division Finance and
        Wage and Investment Division Compliance Finance functions. Benefits were obtained from the
        Automated Offer in Compromise database.

Other costs and benefits
Other costs of the program include the opportunity cost of using IRS staff resources for the OIC
program rather than collection enforcement.4 The OIC program can and has taken away from
other collection work. The Government Accountability Office noted that, between FYs 1997
and 2001, the IRS increased staffing to manage the growing offer inventory and processing time.
However, the growth in staffing was outpaced by the increases in demand and the complexity of
case processing. The number of direct collection field staff hours charged to the OIC program
more than doubled, from about 728,000 hours in FY 1997 to about 1.6 million hours in FY 2001.
At the same time, the number of direct hours charged to all field collection activities declined by


4
  IRS management believes the opportunity cost is substantial. In the SB/SE Division discussion document, Offers
in compromise: HOW MUCH DOES THIS PROGRAM COST?, August 2004, the IRS estimated that the potential
opportunity cost of the lost resources may be over $1.1 billion per year.
                                                                                                            Page 6
                  The Offer in Compromise Program Is Beneficial but Needs to Be
                          Used More Efficiently in the Collection of Taxes



about 30 percent, from about 12.7 million hours in FY 1997 to about 8.9 million hours in
FY 2001.5
In April 2001, 1,078 revenue officers were dedicated to the OIC program. Implementation of the
COIC sites in August 2001 and the lower number of offer receipts during FYs 2004 and 2005
have allowed the IRS to reduce the number of revenue officers dedicated to the OIC program.
IRS management indicated that, by the end of FY 2005, this number had been reduced to
approximately 300. During FY 2006, the IRS plans to further reduce this number to
approximately 150 offer specialists working out of 3 Area Offices.
We did not quantify the increase in revenue from future compliance for the taxpayers “brought
back” into the tax system because of complexities in determining the amount of revenue
generated. For example, taxpayers who earn wages may have tax withholding paid by their
employers; these withholdings should occur regardless of whether the offers were accepted.

Taxpayers were compliant after offer acceptance
Taxpayers generally do remain in compliance when offers are accepted. The IRS effectively
monitored accepted offers to ensure compliance with the terms of the offers. In our sample of
84 taxpayers whose offers were accepted during FY 1999, the IRS identified noncompliance in
33 (39 percent) instances and took appropriate action to resolve the noncompliance.6 At the time
of our review, 96 percent of the 84 taxpayers were in compliance with the OIC payment terms
and the 5-year compliance requirements for filing their returns and paying the taxes due.
The SB/SE Division Office of Campus Filing and Payment Compliance and the Office of
Program Evaluation and Risk Analysis (OPERA) conducted a more comprehensive analysis7 of
individual taxpayer compliance with filing and paying requirements for offers accepted during
Calendar Years 1995 through 2001. Their analysis determined that approximately 80 percent of
the individual taxpayers remained in compliance. This includes taxpayers who received the first
collection notice but did not receive any subsequent notices.
Also, taxpayers remain in compliance after the 5-year monitoring period. Our review of a
sample of 245 taxpayers whose offers were accepted between October 1, 1994, and
December 31, 1998,8 determined that 220 taxpayers (90 percent) were compliant with filing and
payment requirements on tax periods subsequent to the 5-year monitoring period.



5
  TAX ADMINISTRATION: IRS Should Evaluate the Changes to Its Offer in Compromise Program
(GAO-02-311, dated March 2002).
6
  For more information, see Appendix VI, report 5.
7
  IRS Offers in Compromise Program, Analysis of Various Aspects of the OIC Program, September 2004.
8
  The number of tax years for which taxpayers were compliant after completion of the offer monitoring period varies
based on offer acceptance date. At the time of our review, taxpayers in our sample had been compliant from 1 to
5 tax years after the offer monitoring period.
                                                                                                           Page 7
                   The Offer in Compromise Program Is Beneficial but Needs to Be
                           Used More Efficiently in the Collection of Taxes



Various Program Changes Over the Past Several Years Affected Offer
in Compromise Inventory and Timeliness of Processing
Since FY 1992, the OIC program has undergone significant changes. These changes have
resulted in fluctuations in participation by taxpayers in the OIC program. The IRS was not
initially equipped to handle the increase in offer receipts, and a growth in ending inventory and
delays in offer processing (i.e., a backlog) occurred. However, recent changes have helped the
IRS to work offers more quickly, and the implementation of an application fee has contributed to
a reduction in the number of offer filings. The result has been a significant reduction in yearend
inventories, improvement in the timeliness of offer processing, and a significantly reduced
backlog of offers. Some of the major changes include the following:
     •   Increased emphasis on accepting OICs in FY 1992.
     •   Implementation of the IRS Restructuring and Reform Act of 1998 (RRA 98).9
     •   Initiation of the COIC program during FY 2001.
     •   Implementation of the OIC application fee and revision to Form 656 during FY 2004.

Increased emphasis on accepting OICs
In FY 1992, the IRS began to actively encourage taxpayers to use the OIC provision to settle past
liabilities and get a fresh start in tax compliance. The IRS liberalized its policy on accepting
OICs in response to a significant increase in the IRS accounts receivable. The growth in the IRS
accounts receivable caused considerable concern to Congress, the Office of Management and
Budget, the Department of the Treasury, and the IRS. The goal was to increase the use of offers
to increase the collection of revenue, while creating for the taxpayer a fresh start toward
compliance with future filing and payment requirements.
A review conducted during FY 1993 by the IRS Inspection Division10 showed the publicity and
increased emphasis on the new program resulted in a substantial increase in offers. Due to this
increase, the IRS field offices were concerned about diverting resources from working taxpayer
delinquent accounts to working offers. Because no national directive was issued, the field
offices were using various assignment practices.
As a result of the change in policy, the number of offers received substantially increased and
ending inventories began to build. As shown in Figure 4, the number of offers submitted
increased from approximately 17,200 in FY 1992 to 132,500 by FY 1996 (an increase of
approximately 670 percent). During this same period, the yearend inventory increased from



9
 Pub. L. No. 105-206, 112 Stat. 685, 765.
10
  Before implementation of the RRA 98, the functions of the TIGTA were conducted by the IRS Inspection
Division. Inspection report Review of the Service’s Implementation of the New Offer in Compromise Policy (Reference
Number 92070, dated April 5, 1993).
                                                                                                           Page 8
                                        The Offer in Compromise Program Is Beneficial but Needs to Be
                                                Used More Efficiently in the Collection of Taxes



approximately 14,200 offers at the end of FY 1992 to over 39,500 at the end of FY 1996 (an
increase of approximately 178 percent).
                                Figure 4: Analysis of Offer Inventories - FYs 1991 Through 200511
                           165,000      Increased Emphasis on OIC                                  RRA 1998 Enacted,            COIC Program,
                           150,000      Program, Feburary 1992.                                    July 1998.                   August 2001.
                           135,000
                           120,000
 Number of Offers




                           105,000
                            90,000
                               75,000
                               60,000
                               45,000
                               30,000                                                                              RRA 1998 Regulations              OIC Application Fee,
                               15,000                                                                              Issued, July 1999.                November 2003.
                                  -
                                        1991     1992     1993      1994     1995      1996      1997       1998      1999    2000        2001   2002     2003     2004     2005

                    Dispositions        8,098    9,773   33,942     49,587   95,162   131,041 117,173 99,154         71,393   83,208 113,209 143,102 136,822 123,970        91,343
                    Receipts            8,353   17,187   48,967     51,119   98,078   132,539 113,967 104,942        95,998 108,113 120,684 124,033 127,769 106,025         74,311
                    Ending inventory    6,816   14,237   29,232     30,817   38,384   39,554     32,279     37,941   62,551   87,456   94,931    74,765   65,327   47,113   30,095
                                                                                              Fiscal Year

 Source: TIGTA analysis of Collection Reports 5000-108.

In the FY 1997 Taxpayer Advocate’s Annual Report to Congress,12 the OIC program was
highlighted as 1 of the 20 most serious problems facing taxpayers. The Report stated that tax
practitioners ranked “Offer in Compromise Issues” as the fourth most serious problem facing
taxpayers and IRS management ranked “Delays in OIC Processing” as the fifteenth most serious
problem. In addition to the delays, the Report also noted there was a lack of clarity and
consistency in the program.
Implementation of the RRA 98
The RRA 98 included taxpayer rights and protections applicable to the OIC program. The
RRA 98 added “effective tax administration” as a factor in determining whether to accept an
offer. The Act also provided an independent administrative review of any proposed offer
rejection. However, RRA 98 Section 3462 was vague about the effective date and did not
specify how to expand the program. Temporary Department of the Treasury regulations were
issued on July 21, 1999, 1 year after the law was passed.
Our review of the IRS’ implementation of the provisions of the RRA 98 showed that the IRS
modified the OIC process to comply with the requirements of the RRA 98 and had taken steps to
expand access to the program. However, the IRS needed to develop guidelines to better prepare
taxpayers to supply information for the offer process, allow further flexibility when determining


11
   The ending inventory does not equal beginning inventory. This is due to inventory corrections affecting
beginning inventory. For example, beginning inventory can be increased to reflect instances in which previously
closed cases are reopened.
12
   IRS Publication 2104 (Rev. 1-98).
                                                                                                                                                                            Page 9
                    The Offer in Compromise Program Is Beneficial but Needs to Be
                            Used More Efficiently in the Collection of Taxes



an acceptable offer amount, and encourage taxpayer access to the appeal process. A
management information system was also needed to monitor and manage both the acceptance of
OICs based on special circumstances and the results of the independent administrative review of
rejected offers.13
After enactment of the RRA 98, the number of offers accepted in FY 2001 was 50 percent higher
than in FY 1997, and a significant inventory backlog developed. During the same period, there
was a 200 percent increase in yearend offer inventory. As shown in Figure 4, during
FY 2000, the yearend inventory exceeded the number of offer dispositions during that entire
year. The yearend inventory increased from approximately 32,000 offers at the end of
FY 1997 to approximately 95,000 at the end of FY 2001. Also, the age of both offers in
inventory and offers at disposition grew. As shown in Figure 5, dispositions taking longer than
12 months increased from approximately 7 percent to 25 percent during this same period.
     Figure 5: Age of Processable Offer Dispositions - FYs 1993 Through 200514

            100%     10%     12%    10%      9%      7%      7%       9%
                                                                              17%                      16%   17%    13%
             90%                                                                      25%     26%
             80%                                    29%     33%
                     36%            34%      32%                                                                    26%
                             35%                                     40%                               28%   28%
             70%
             60%                                                              45%
                                                                                      43%     36%
             50%
             40%
                                             59%    64%     60%                                                     61%
             30%     54%     53%    56%                              51%                               56%   55%
             20%                                                              38%     32%     38%
             10%
              0%
                   FY 1993 FY 1994 FY1995 FY 1996 FY 1997 FY 1998 FY 1999 FY 2000 FY 2001 FY 2002 FY 2003 FY 2004 FY 2005

                                     0-6 Months        More than 6 Months-12 Months         Over 12 Months


     Source: TIGTA analysis of Collection Reports 5000-108.

Initiation of the COIC program
The IRS initiated the COIC program in August 2001. The concept was to control, gather
required information for, and evaluate offers at two centralized sites (Brookhaven, New York,
and Memphis, Tennessee). The more complex offers (e.g., business and self-employed
taxpayers) were forwarded to field offer groups where experienced revenue officers, known as
offer specialists, conduct the offer evaluations. The expectations were that offers could be
worked more quickly and the growing backlog of offers would be reduced.



13
   For more information, see Appendix VI, report 1.
14
   For FY 2005, the IRS offer data include not-processable offers in the age of dispositions. These data showed that,
during FY 2005, 71 percent of the dispositions were closed in 6 or fewer months. For comparability with prior
fiscal years, we excluded not-processable offers from the number of offers disposed of in 6 or fewer months (to
arrive at the percentage shown in the last column of Figure 5).
                                                                                                                            Page 10
                  The Offer in Compromise Program Is Beneficial but Needs to Be
                          Used More Efficiently in the Collection of Taxes



After implementation of the COIC sites, the yearend inventories of offers declined and the
timeliness of offer processing improved. Yearend inventories declined from approximately
95,000 at the end of FY 2001 to approximately 65,000 by the end of FY 2003 (see Figure 4).
Over this same period, the overall timeliness of offer processing improved. The number of
offers closed within 6 months of receipt improved from 32 percent in FY 2001 to 56 percent in
FY 2003 (see Figure 5).
However, our review of the implementation of the COIC program showed the reduction was
primarily due to significantly more offers being returned to taxpayers. Taxpayers and their
representatives contributed to the increase in returned offers by submitting offers even though
they were not eligible for an OIC or because they did not stay current in filing tax returns and
making estimated tax payments while their offers were being evaluated.15 For FYs 2002 and
2003, approximately 163,000 (58 percent) of 280,000 offers were returned to taxpayers either as
not-processable offers or as processable returned offers.

Implementation of an OIC application fee and revision to Form 656
The IRS implemented an OIC application fee at the beginning of FY 2004. The fee was intended
to reimburse the IRS for part of the expense of running the OIC program. In addition, the IRS
expected that the OIC application fee would deter unreasonable or frivolous offers, thus allowing
the available OIC staff to better handle the workload. In addition, the IRS revised Form 656 in
July 2004 to clarify processability requirements. The revised Form 656 provided space for
taxpayers to include an explanation if they were not legally required to file a tax return.
Our review of the implementation of the OIC application fee showed offer receipts declined at
all income levels. However, we noted that taxpayers whose income was below the poverty level
were more affected than taxpayers above the poverty level. Since poverty-level taxpayers are
exempt from the $150 OIC application fee, it was not clear why there was a more significant
decline in offer filings by this group of taxpayers. It is possible that initially some poverty-level
taxpayers were not aware of the exemption. However, beginning in early 2004, the IRS
conducted a media campaign to advise taxpayers of the OIC eligibility requirements and the
exemptions.16
After implementation of the OIC application fee and revisions to Form 656, offer receipts
declined from approximately 128,000 during FY 2003 to approximately 74,000 in FY 2005
(a 42 percent decrease) . Also during this time, the number of offers closed within 6 months of
receipt improved from 56 percent in FY 2003 to 61 percent in FY 2005.17


15
   For more information, see Appendix VI, report 4.
16
   For more information, see Appendix VI, report 7.
17
   IRS data showed 71 percent of the dispositions were closed in 6 or fewer months. This included
not-processable offers. For comparability, we excluded not-processable offers from the number of offers disposed
of in 6 or fewer months.
                                                                                                         Page 11
                     The Offer in Compromise Program Is Beneficial but Needs to Be
                             Used More Efficiently in the Collection of Taxes



Inventory backlog
Implementation of the COIC program and the OIC application fee had significantly reduced
inventory backlog by the end of FY 2005. As shown in Figure 4, the overall number of offers in
inventory had decreased 68 percent, from approximately 95,000 at the end of FY 2001 to
approximately 30,000 by the end of FY 2005. Figure 6 shows that the ending inventory of all
offers over 12 months old decreased from approximately 19 percent at the end of FY 2001 to
approximately 6 percent by the end of FY 2005. See Appendix V for a detailed comparison of
COIC sites with field offer groups.
                     Figure 6: Age of Yearend Inventory - FYs 2001 Through 2005

                            100%                                                                  6%
                                                     18%           14%             13%
                            90%        19%
                                                                                                 16%
                            80%                                                    22%
                                                                   23%
                            70%                      21%
                                       28%
                            60%
                            50%
                            40%                                                                  78%
                                                     61%           63%             65%
                            30%        53%
                            20%
                            10%
                             0%
                                   FY 2001         FY 2002     FY 2003      FY 2004           FY 2005

                                    0-6 Months      More than 6 Months-12 Months         Over 12 Months

                       Source: TIGTA analysis of Collection Reports 5000-108.

Other changes to the OIC program
In addition to the changes noted above, the following recent changes may affect participation
levels in the OIC program and the timeliness of offer processing:
       •   The American Jobs Creation Act of 2004.18 This Act provided the IRS with the authority
           to enter into partial payment installment agreements. Through these agreements, the IRS
           may accept an installment agreement when the tax liability will not be fully satisfied
           within the collection statute expiration date.
       •   An expanded role for the COIC sites. The IRS piloted an expansion of the COIC
           program by including offers from taxpayers that filed a U.S. Individual Income Tax
           Return (Form 1040) Schedule C (Profit or Loss From Business). The IRS limited the
           expansion to taxpayers that reported gross receipts under $100,000 and showed no



18
     Pub. L. No. 108-357, 118 Stat. 1418 (2004).
                                                                                                          Page 12
                   The Offer in Compromise Program Is Beneficial but Needs to Be
                           Used More Efficiently in the Collection of Taxes



         employees. The IRS considered the pilot to be successful and plans to fully implement
         the expanded role during FY 2006.
We have not evaluated the impact of these changes on the OIC program. However, we are
currently conducting a review of the partial payment installment agreements and have scheduled
a review of the COIC sites’ evaluation of offers from taxpayers filing Schedule C.

Improvement Is Needed in Attracting Potential Candidates for the
Offer in Compromise Program
The IRS needs to improve methods of identifying candidates for the OIC program. Between
FYs 1996 and 2005, approximately 24 percent of the 1.1 million offers received were accepted.
Over this same 10-year period, 50 percent either did not meet preconditions of filing an offer or
were returned to the taxpayer (e.g., for missing information) during the offer evaluation.
Currently, taxpayers who wish to participate in the program initiate an offer; however, this
attracts offer applications from taxpayers that do not qualify for the program or taxpayers that do
not fully understand the depth of financial verification the IRS conducts before accepting an
offer. Our analysis of offer dispositions determined:
     •   A significant number of offer applications do not meet the preconditions of filing an
         offer. Those offers not meeting the preconditions are returned to the taxpayers (as
         not-processable returned offers) without further consideration. However, the IRS must
         evaluate the processability of all offers received except those based upon Doubt As to
         Liability.19
     •   A substantial portion of the offers determined to meet the preconditions are returned to
         taxpayers during the offer evaluation process without being fully evaluated. This occurs,
         for example, when taxpayers no longer meet the preconditions of offer filing or did not
         provide information requested during the course of the offer evaluation. The IRS closes
         these cases as processable returns.
The submission of offers that are returned increases taxpayer frustration and burden as well as
the IRS’ workload. It also degrades service to other taxpayers who submit offers that meet all
requirements and more realistically represent their ability to pay.
The high rates of returned offers occurred because requirements of the OIC program were not
always clear to taxpayers. In addition, taxpayers had little to lose; if their offers were not
accepted, collection of their taxes was, in effect, delayed. The OIC application fee implemented
by the IRS during FY 2004 was intended to reduce the number of frivolous offers; however, this


19
  This is because offers submitted on the basis of Doubt As to Liability represent disputes as to the existence or
amount of the tax liability and apply to the specific tax periods that are in question.
                                                                                                             Page 13
                   The Offer in Compromise Program Is Beneficial but Needs to Be
                           Used More Efficiently in the Collection of Taxes



fee is not applicable to offers that are considered to be not-processable. Also, in light of the
potential benefit of a fresh start, the fee may not be significant to some taxpayers.

A significant number of offer applications are determined to be not-processable
As of November 2003, the processability requirements (preconditions) for filing an offer
included the following criteria. The taxpayer:
     •   Cannot be in bankruptcy.
     •   Has filed all required tax returns.
     •   Has timely filed and deposited all employment taxes for the prior 2 quarters and remained
         current with Federal tax deposit requirements, if applicable.
     •   Used the most current version of Form 656, Collection Information Statement for Wage
         Earners and Self-Employed Individuals (Form 433-A), and/or Collection Information
         Statement for Businesses (Form 433-B).20
     •   Submitted the $150 application fee21 or, for low-income taxpayers, a Form 656-A.
The initial processing for offers, including determining whether the offers are processable, is
conducted at the COIC sites. We determined the COIC sites generally followed IRS procedures
when returning not-processable offers.22 During FYs 1996 through 2005, approximately
33 percent of the 1.1 million offer dispositions were not-processable. Not-processable
dispositions ranged from 56 percent in FY 1996 to approximately 14 percent in FY 2001.
Figure 7 shows the not-processable determination as a comparison to total dispositions for
FYs 1996 through 2005. Some of the processing changes that affect the not-processable
disposition include the following. The IRS:
     •   Modified the processable criteria and reduced the number of reasons why an offer would
         be returned as not-processable during FY 2000 (not-processable cases reduced).
     •   Implemented a requirement that offers be filed on the current version of Form 656 in
         May 2002 (not-processable cases increased).
     •   Implemented the OIC application fee in November 2003 (FY 2004, not-processable cases
         increased).




20
   The IRS eliminated this from the not-processable return criteria during FY 2005.
21
   The application fee is not required for offers filed solely on the basis of Doubt As to Liability.
22
   We reviewed a judgmental sample of 53 offers closed as not-processable during our visits to the 2 COIC sites.
We reviewed 30 offers returned by the Memphis COIC site in August 2002 and 23 offers returned by the
Brookhaven COIC site in September 2002. For more information, see Appendix VI, report 4.
                                                                                                          Page 14
                  The Offer in Compromise Program Is Beneficial but Needs to Be
                          Used More Efficiently in the Collection of Taxes



                     Figure 7: Analysis of Not-Processable Dispositions -
                                   FYs 1996 Through 2005

                    100%
                     90%
                     80%        44%       47%       50%
                     70%                                      69%                                               69%
                                                                                            77%       78%                  75%
                     60%                                                84%       86%
                     50%
                     40%
                     30%        56%       53%       50%
                     20%                                      31%                                               31%
                                                                                            23%       22%                  25%
                     10%                                                16%       14%
                         0%
                              FY 1996   FY 1997   FY 1998   FY 1999   FY 2000   FY 2001   FY 2002   FY 2003   FY 2004   FY 2005
           Processable        57,336    54,859    49,667    49,051    69,514    97,024    110,205   106,416   85,417    68,630
           Not-Processable    73,705    62,314    49,487    22,342    13,694    16,185    32,897    30,406    38,553    22,713

    Source: TIGTA analysis of Collection Reports 5000-108.

The IRS maintains data to identify the reasons offers are classified as not-processable. For
FYs 2000 through 2005, our analysis of that information showed failure to file returns was the
most frequent reason for returning offers to taxpayers. The percentage of not-processable offers
due to failure to file ranged from approximately 41 percent in FY 2004 to approximately
80 percent in FY 2001. Appendix IV provides more details on the reasons why offers are
returned to taxpayers.

A substantial portion of the processable offers are also returned
Once an offer is found to be processable, the IRS may return the offer without a full evaluation
of the offer proposal. The processable return category was established in FY 2000 when the IRS
changed the criteria for determining the processability of offers. Some conditions previously
considered to make the offer not-processable were changed to perfection issues. This allowed
more offers to be considered past the initial processing; however, the perfection issues generally
need to be addressed before the offer can be accepted.
The IRS may return offers when:
   •   The taxpayer fails to fulfill a request for information necessary to complete a full
       evaluation.
   •   The taxpayer fails to remain in compliance with the filing of required tax returns while
       the offer is under evaluation.
   •   The taxpayer fails to make required estimated tax payments or Federal tax deposits while
       the offer is under evaluation.
   •   The IRS determines the offer was filed solely to delay collection actions.


                                                                                                                                  Page 15
                     The Offer in Compromise Program Is Beneficial but Needs to Be
                             Used More Efficiently in the Collection of Taxes



IRS data show that, during FYs 2000 through 2005, 36 percent of approximately
536,000 processable offers were closed as returned offers. Figure 8 shows processable
dispositions during FYs 2000 through 2005. Processable returned offer dispositions were
approximately 29 percent of the total offer dispositions in FY 2005 and have ranged from
approximately 19 percent in FY 2000 to 46 percent in FYs 2002 and 2003.
             Figure 8: Analysis of Processable Dispositions - FYs 2000 Through 2005
                           120,000


                           100,000

                                                    29%       46%       46%
                            80,000
                                                                                 38%
                                         19%       17%
                            60,000                                                          29%
                                                             12%        8%
                                          18%                                     9%
                                                    14%                                     11%
                            40,000       15%                 15%        26%
                                                                                 30%       32%
                            20,000       48%       40%
                                                             27%
                                                                       20%       23%       28%
                               -
                                      FY 2000   FY 2001   FY 2002   FY 2003   FY 2004   FY 2005

                         Returned     13,555    27,751    50,492    49,079    32,358    20,068
                         Withdraw n   12,328    16,654    13,327     8,214     7,692     7,288
                         Rejected     10,517    13,976    16,952    27,336    25,654    22,105
                         Accepted     33,114    38,643    29,140    21,570    19,546    19,080


                Source: TIGTA analysis of Collection Reports 5000-108.

Our reviews of 83 offers returned to taxpayers by the COIC sites (33 offers) and the field offer
groups (50 offers) determined that IRS procedures were generally followed.23 We identified
errors on only 5 (6 percent) of 83 offers returned. The errors were identified on cases processed
by the COIC sites and primarily involved administrative issues such as information not being
associated with the case file or the information request was not mailed to the taxpayer.

Recent changes affect the OIC program, but more could be done
When developing the July 2004 revision to Form 656, the IRS obtained comments from both the
Taxpayer Advocate Service and tax practitioner groups. In addition to providing direction for
the new application fee, the revised Form 656 included space for taxpayers to include an
explanation if they were not legally required to file a tax return.24 The not-processable returned
offer dispositions declined from 31 percent of dispositions during FY 2004 to approximately
25 percent during FY 2005. Because of the timing between the implementation of the
application fee and the revisions to Form 656, we could not determine the extent to which the
improvements to the Form 656 assisted in this reduction; however, it is crucial that the
processing requirement be clearly stated so taxpayers can evaluate their situations prior to filing
an offer.

23
     For more information, see Appendix VI, reports 4 and 6.
24
     National Taxpayer Advocate report entitled 2004 Annual Report to Congress (Reference Volume 1, page 319).
                                                                                                        Page 16
                    The Offer in Compromise Program Is Beneficial but Needs to Be
                            Used More Efficiently in the Collection of Taxes



During FY 2004, the IRS also attempted to reduce the number of processable returned offers by
revising procedures for evaluating responses to information requests. Under the revised
procedures, a nonresponse to a request for information may no longer result in a routine decision
to return the offer to the taxpayer. For example, when a taxpayer’s response to a request for
information is incomplete, the IRS will determine whether:
       •   The omission of information is material enough to prevent an RCP calculation.
       •   The taxpayer’s response addressed all requested items even if the response did not
           exactly and/or specifically include the information requested. If so, the IRS will provide
           the taxpayer with an opportunity to supply the information needed.
Discussions with COIC site management indicate these new returned offer procedures have
produced more communication between taxpayers and IRS examiners than in the past. Our
review of disposition data showed the percentage of processable offers returned to taxpayers
declined from 46 percent in FY 2003 to 29 percent in FY 2005. In addition, offers returned
because taxpayers did not provide financial information declined from approximately
67 percent in FY 2003 to 48 percent in FY 2005. See Appendix IV for more details on reasons
processable offers are returned to taxpayers.
The IRS’ authority to enter into partial payment installment agreements provided by the
American Jobs Creation Act of 2004 may also decrease the number of offers received. These
agreements are similar to offers accepted on a long-term payment basis, known as deferred
payment offers. For these offers, the offer amount will be paid over the remaining life of the
collection statute. Due to the similarities between these payment alternatives, it is not clear to us
which payment method would be in the best interest of the Federal Government and the
taxpayer. A June 2005 training topic provided a Payment Options Comparison Chart25 that
showed various payment alternatives. This information could be beneficial to taxpayers and tax
practitioners in determining which payment alternative to use. Some modification may be
necessary, such as including all offer bases and providing direction or examples to help
taxpayers choose among the payment options.
Past changes to the offer program have resulted in significant receipts in potential offers. The
IRS was not equipped to deal with the increase in receipts, and a backlog of unprocessed offers
ensued. Changes in the offer program are needed to increase the appropriate use of the OIC
collection alternative. However, caution is needed to ensure the increase in the use of the
program does not exceed the IRS’ ability to promptly and accurately evaluate proposed offers.
We believe the IRS should better identify the taxpayers for whom the offer program is intended
and actively pursue getting the taxpayers into the program. Taxpayers for whom the OIC
program is intended may include:



25
     See Appendix IV, Figure 3.
                                                                                              Page 17
                   The Offer in Compromise Program Is Beneficial but Needs to Be
                           Used More Efficiently in the Collection of Taxes



     •   Taxpayers who have demonstrated compliance with filing and payment requirements
         over an extended period (e.g., 3 years).
     •   Taxpayers whose accounts are in the Queue for extended periods, or are considered
         currently not collectible, including those accounts that are shelved.
Our review of accounts in the Queue and shelved accounts26 determined that, as of
April 18, 2005, taxpayer accounts with balances due totaling more than $3.9 billion had been in
the Queue for more than 1 year and more than $1.6 billion in balances due had been in the Queue
longer than 2 years.27 In addition, 798,783 taxpayer accounts with balances due totaling
$6.2 billion were shelved between October 1, 2000, and September 30, 2004.28

Recommendations
The Commissioner, SB/SE Division, should:
Recommendation 1: Develop a strategy to identify potential candidates for the OIC program
and then determine how to get these taxpayers into the program. This may include, for example,
taxpayers whose accounts are considered currently not collectible and/or taxpayers who have a
demonstrated filing compliance.
         Management’s Response: IRS management agreed with this recommendation. The
         IRS is currently conducting a pilot called the OIC Candidate Study. The pilot will
         evaluate whether taxpayers who are in compliance and whose accounts are in currently
         not collectible status are good candidates for the OIC program. The IRS has identified a
         target population and will be providing the taxpayers with the information necessary to
         submit an OIC.
Recommendation 2: Provide taxpayers a payment matrix, similar to the Payment Options
Comparison Chart, to show the payment alternatives and provide examples of when the offer
program should be used. The matrix may be made available on the IRS Internet site and the
instructions to Forms 656.
         Management’s Response: IRS management agreed with this recommendation. The
         IRS will provide taxpayers with information on payment alternatives in a revised



26
   For more information, see Appendix VI, report 8.
27
   The Individual Master File data were not limited by type of tax, but the Business Master File data include only
trust fund taxes.
28
   For this analysis, we excluded some shelved tax modules that may have limited collection and/or lien potential.
These are criteria we defined during this audit, not IRS criteria. The Individual Master File tax modules include
only those taxpayers that were alive (no date of death on the Master File) and between 20 and 65 years old.
Business Master File tax modules exclude estates and include only those businesses that did not have a
business-closed date entered on the Master File.
                                                                                                           Page 18
                     The Offer in Compromise Program Is Beneficial but Needs to Be
                             Used More Efficiently in the Collection of Taxes



           Form 656 and will include this information on the IRS Internet site to assist taxpayers in
           making an informed decision.
Recommendation 3: Develop an Internet application for Forms 656, 433-A, and 433-B. The
Internet application should screen out taxpayers whose offers are not-processable (e.g., those
taxpayers in bankruptcy or those who have not filed all required tax returns). It should also alert
taxpayers about what documents must be submitted to the IRS, depending on the items reported.
           Management’s Response: IRS management believes this recommendation is
           premature and will not be implementing corrective actions. The IRS is developing an
           Internet application for installment agreements; once that application is fully functional,
           the IRS will evaluate the feasibility and cost-effectiveness of similar applications for
           other programs, including the OIC program.
           Office of Audit Comment: We agree with the IRS’ decision to evaluate the feasibility
           and cost-effectiveness of an Internet application on installment agreements prior to
           developing an Internet application for the OIC program. This will benefit both the IRS
           and taxpayers through reduced development and implementation costs.

Inconsistent Financial Analyses Could Alter Offer in Compromise
Decisions
Our review of judgmental samples of 187 closed offers (96 accepted, 81 rejected, and
10 withdrawn) showed appropriate determinations were not always made and improvement was
needed in the accuracy and documentation of financial analyses conducted during offer
evaluations. The samples included 87 offers evaluated at the COIC sites (46 accepted,
31 rejected, and 10 withdrawn)29 and 100 offers evaluated by the field offer groups (50 accepted
and 50 rejected).30
In the analysis of offers based on DATC, the offer specialist compares the amount the taxpayer
offered with the amount the IRS determines could be legally collected from the taxpayer (i.e., the
RCP). When offers are submitted based on ETA, the offer specialist determines if the RCP is
greater than the amount owed before considering the taxpayer’s special circumstances.
The RCP is based on the taxpayer’s equity in assets and future income in excess of necessary
living expenses. The IRS requires the taxpayer to complete a financial statement and provide
documents to verify the amounts reported on the financial statement. The offer should be
accepted when the offer amount reasonably reflects the RCP or the offer amount adequately
reflects the consideration of economic hardship when a special circumstance exists.



29
     For more information, see Appendix VI, report 4.
30
     For more information, see Appendix VI, report 6.
                                                                                               Page 19
                  The Offer in Compromise Program Is Beneficial but Needs to Be
                          Used More Efficiently in the Collection of Taxes



We identified errors or combinations of errors in the financial analysis for 59 (32 percent) of the
187 cases reviewed. The errors identified affected the outcome of 12 (13 percent) of the
96 accepted offers reviewed but did not change the final decisions in any of the 91 rejected or
withdrawn offers reviewed. These errors involved:
     •   Monthly income in 36 instances. These included the calculation of income for wage
         earners (19), business income of self-employed or business taxpayers (8), and
         unemployed persons (9).
     •   Monthly expenses in 15 instances. These included calculation of the allowable tax
         expense (seven), national standard or local housing standard (five), or other allowable
         expenses (three).
     •   The calculation of net equity in assets in eight instances. These included the valuation of
         equity in investments (five) and the valuation of other assets such as real estate or
         residence (three).
The IRS implemented the use of standards for three general categories of expenses. The intent
was to provide a consistent and reasonable basis when determining the amounts of some
common necessary expenses. National standards are used for food and clothing expenses.
Local standards are used for housing and utilities expenses and transportation expenses
(e.g., ownership and operating expense of automobiles).
The use of these standards has met with some criticism from tax practitioners and the National
Taxpayer Advocate.31 The standards have been cited as being inflexible. IRS procedures
indicate these standards are guidelines and can be exceeded if they are inadequate to provide for
a specific taxpayer’s basic living expenses. In our reviews of these 187 cases, we identified
errors in the application of the standards but did not identify any examples of unreasonable
adherence to the standards.

Improper decisions were caused by insufficient evaluation of data and
inadvertent errors in calculations
Insufficient analysis of documentation provided by taxpayers and/or inadvertent errors in
calculations occurred because offer determinations involve indepth evaluation of a taxpayer’s
assets and ability to pay. This process is complex, requiring employees to pay close attention to
details and to make numerous calculations. While managers reviewed and approved the final
decisions in the offers included in our sample, the errors were not always identified. This is due
to the managers’ workloads and an emphasis on reasonableness of the offer conclusion rather
than a recalculation of the offer.


31
  National Taxpayer Advocate report entitled 2005 Annual Report to Congress (Reference Volume 1,
Topic number 16).
                                                                                                   Page 20
                  The Offer in Compromise Program Is Beneficial but Needs to Be
                          Used More Efficiently in the Collection of Taxes



We identified errors in the determinations of monthly income in 36 (19 percent) of the 187 cases
reviewed. Inaccurate income determinations were significant contributing factors in 9 of the
12 instances in which the offer determination was adversely affected.
IRS procedures provide that the income calculation is based on an estimate from current earnings
information (e.g., wage statements for employed taxpayers or income statements for business
and self-employed taxpayers) or from an average of the taxpayer’s earnings from prior years,
when the taxpayer is temporarily unemployed or employment is sporadic.
Income errors occurred because employees used incorrect sources of information (e.g., income
of an unemployed person based on unemployment benefits) or made inadvertent mathematical or
other calculation errors, such as not adjusting business or self-employed income for asset
depreciation expense. In addition, guidance in the Internal Revenue Manual did not adequately
cover many circumstances encountered in evaluating the various types of earning statements. As
a result of our review of the COIC program,32 the IRS revised the Internal Revenue Manual
procedures for financial analysis on May 1, 2004. These procedures included additional details
for the calculation of income, which should help employees analyze financial information more
consistently.
We made additional recommendations in our review of the field offer groups. These
recommendations have not been fully implemented, or we have not verified the implementation
of the corrective actions due to the limited amount of time since we made the
recommendations.33 Our recommendations included:
     •   Consider requiring the use of a standardized tool, such as Decision Point,34 or analysis
         tools in the offer evaluation process. This would help reduce errors involving
         miscalculations. The IRS indicated the Decision Point program is currently being
         analyzed and upgraded to include applications for business-related financial statements.
         Once upgrades are completed, the IRS intends to require the program’s use on OICs
         evaluated by field offer groups. This program should not only help reduce calculation
         errors but also serve as a helpful guide to OIC specialists when analyzing the financial
         conditions of businesses.
     •   Evaluate alternative case file documentation techniques for organizing the supporting
         documentation and calculations. This would assist with managerial review of the cases
         so calculations could be more easily reviewed for accuracy. The IRS indicated the
         implementation of Decision Point will assist in providing more consistency and quality
         assurance in OIC calculations and reports. In addition, operational review plans will


32
   For more information, see Appendix VI, report 4.
33
   For more information, see Appendix VI, report 6.
34
   Decision Point is a Microsoft Excel® spreadsheet application developed by the IRS to guide IRS employees
through the financial evaluation of offers.
                                                                                                        Page 21
                The Offer in Compromise Program Is Beneficial but Needs to Be
                        Used More Efficiently in the Collection of Taxes



       include an objective to review current methods of case file organization, which will lead
       to Internal Revenue Manual direction to standardize best practices in this area.
   •   Identify and provide additional training on financial analysis techniques used in support
       of the offer determinations. Based on our limited review, training topics should include
       income determination issues. The IRS indicated the financial analysis training was
       provided to revenue officers in August 2005.

Better Use of Financial Analysis Is Needed
As previously discussed, offer determinations involve an indepth evaluation of the taxpayer’s
assets and ability to pay. The IRS requires the taxpayer to complete a financial statement and
provide supporting documents. In terms of time and resources by both the IRS and taxpayers,
this represents a substantial investment. However, when an offer evaluation results in a decision
not to accept, the IRS generally returns the taxpayer’s delinquent account to the normal
collection process.
The systemic processes involved, in effect, suspend the IRS’ contact with the taxpayers while
delinquent accounts await assignment to other collection functions (e.g., the Automated
Collection System (ACS) or the Collection Field function (CFf)). In some instances, due to IRS
collection priorities and workload, the taxpayers’ accounts may not receive the IRS’ attention
other than through routine notice procedures. Through this process, the information developed
in the offer evaluation may not be associated with collection actions taken by other IRS
functions.
We determined many taxpayers whose processable offers were not accepted were compliant with
subsequent filing and payment requirements. Other studies also show that the quicker a
delinquent account is actively pursued for collection, the higher the success rate on collecting the
delinquency.

Offers returned to the collection process
The IRS is generally prohibited from taking collection action while an offer is being considered
and for 30 calendar days after an offer is rejected. Following the rejection of an offer, the IRS
maintains the offer in a suspense file for 45 calendar days. This provides the taxpayer
30 calendar days to appeal the determination and an additional 15 calendar days for the
administrative process of associating an appeal request with the offer case file.
Our review of 100 (50 COIC site and 50 field offer group) offers rejected between
October 1, 2002, and June 30, 2003, determined collection actions were not promptly resumed
following the determinations to reject the taxpayers’ offers, even though the taxpayers attempted
to resolve their liabilities by filing OICs. Figure 9 shows a comparison of the collection status of



                                                                                            Page 22
I                       The Offer in Compromise Program Is Beneficial but Needs to Be
i
                               Used More Efficiently in the Collection of Taxes



    taxpayers' accounts prior to the offer filings and the collection status3' following the offer
    rejections. In 16 of the 100 rejected offers, the taxpayers' accounts were put in either the Queue
    or Currently Not Collectible (CNC) status following the decision to reject the offer. In seven
    other instances, the taxpayers' accounts were not reactivated for collection due to bankruptcy
                      subsequently filed offers 7               1o             l          f         q

                         Figure 9: Collection Status Following Offer Rejection




         Source: TIGTA review of 100 rejected ofers.

    In addition, the 50 cases put into active collection status in the ACS (45) and the CFf (5)
    averaged approximately 102 calendar days (ranging fiom 39 calendar days to 220 calendar days)
    fiom the issuance of the disposition letter to the reactivation of the active collection status. This
    includes an average of 5 1 calendar days to close the cases on the Automated Offer in
    Compromise Database (a minimum of 45 calendar days is generally provided to allow the
    taxpayer to appeal) and an average of approximately 5 1 calendar days to resume active collection
    after the cases were closed on the Automated Offer in Compromise Database.
    While some cases experienced delays in the OIC functions, much of the time required to resume
    active collection is due to standard processing routines. While taxpayers7accounts are often
    placed into the collection status they were in prior to the offers being filed, cases may also be
    placed in final notice ~ t a t u s ~ ~ a foffers
                                               t e r are closed. This occurred, for example, when the
    taxpayers' accounts had not had a final notice issued within the last 18 weeks.

    Collections after offer rejection
    The RCP calculation offers a reasonable approach to identifying collection potential, but it did
    not always accurately predict subsequent collections (i.e., collections after an offer has been


    35
       This analysis shows the collection status other than notice status (e.g., final notice).
    36
       The final notice is the last notice the taxpayer receives before the IRS will take collection action on the taxpayer
    like the filing of a lien, levying on the taxpayer, or seizing property.
                                                                                                                   Page 23
                  The Offer in Compromise Program Is Beneficial but Needs to Be
                          Used More Efficiently in the Collection of Taxes



rejected). Overall, our analysis of the 100 rejected offers37 showed that subsequent collections
exceeded the offer amounts by approximately $272,000.
For the 100 cases reviewed, subsequent collections were less than the amounts offered in
36 cases, including no subsequent collections from 13 cases. In total, the offer amount exceeded
the subsequent collections on the 36 cases by almost $204,000. In contrast, 64 cases had
subsequent collections that exceeded the offer amount. The liabilities included in the offer for
32 cases had been fully paid, and the taxpayers for 16 other cases were currently making
payments through installment agreements. In total, the subsequent collections exceeded the offer
amount on these 64 cases by approximately $476,000.
We compared the subsequent collections with the following RCP groupings:
     •   Full Pay - Assets: the RCP calculation indicated the taxpayer’s equity in assets was
         sufficient to fully pay the liabilities (28 instances).
     •   Full Pay - Future Income: the RCP calculation indicated the taxpayer’s future income
         was sufficient to fully pay the liabilities (46 instances).
     •   Full Pay: the RCP calculation indicated the taxpayer could fully pay through a
         combination of assets and future income (10 instances).
     •   Less Than Full Pay: the RCP calculation indicated a DATC; however, the offer amount
         was less than the RCP (16 instances).
The taxpayers with equity in assets more often had subsequent collections in excess of the offer
amount than those taxpayers in the other groupings. Figure 10 shows the account status at the
time of our review and the results of the RCP calculation. In 22 (78 percent) of the 28 cases in
the Full Pay - Assets grouping, the taxpayers either had fully paid the liabilities (64 percent) or
were participating in installment agreements (14 percent). In addition, 89 percent of these cases
had subsequent collections in excess of the offer amount.
In comparison, only 2 (12 percent) of the 16 cases in the Less Than Full Pay grouping had either
fully paid the liabilities or were currently participating in installment agreements. Of these
16 taxpayers, only 44 percent had subsequent collections in excess of the offer amount.




37
  We reviewed the taxpayers’ account information between February 28, 2005, and March 4, 2005. This was
approximately 20 to 29 months after the offers had been rejected and closed on the Automated Offer in Compromise
Database.
                                                                                                       Page 24
t                         The Offer in Compromise Program Is Benefi-cia1but Needs to Be
i
                                 Used More Efficiently in the Collection of Taxes



           Figure 10: Subsequent Collections on a Sample of 100 Rejected Offers38




         Subsequent Collections
                                     25      89%     28      61%      4       40%     7       44%     64       64%
         Exceeded Offer Amount
         Source: TIGTA review of 100 rejected ofers.
    The SB/SE Division Office of Campus Filing and Payment Compliance function and the
    OPERA conducted a more comprehensive analysis39of subsequent collections from offers
    rejected. This analysis showed that the IRS collected less than 80 percent of what individual
    taxpayers were offering in 54 percent of the offers rejected. This includes no subsequent
    collections from 21 percent of the individual taxpayers.
    The IRS report also indicated a high percentage of rejected or returned offers were not actively
    worked and resolved. The report recommended conducting an analysis to determine how the
    processing system can be modified to ensure taxpayers whose offer requests are not accepted are
    offered the appropriate collection alternative treatments. Our tests supported this conclusion.

    Compliance after offer nonacceptance
    We reviewed a sample of 93 nonaccepted offers from taxpayers who did not have a subsequent
    offer accepted. The sample was selected from offers closed between October 1, 1994, and
    December 3 1, 1998. Our review of the taxpayers' accounts determined that many of these
    taxpayers remained in compliance with IRS filing and payment requirements. For the 5 tax years
    after the offers were closed, the taxpayers:
             Were compliant with filing and payment requirements on or before receipt of the final
             notice in 69 instances (74 percent).
             Were compliant with filing and payment requirements, but required some collection
             action beyond final notice, in six instances (6 percent).
             Were not compliant with filing andlor payment requirements in 18 instances (19 percent).




    38 The percentage calculation by current status in the Full Pay - Future Income grouping was affected by rounding
    and does not total 100 percent.
    39 IRS Ofers in Compromise Program, Analysis of VariousAspects of the OIC Program, September 2004.

                                                                                                              Page 25
                The Offer in Compromise Program Is Beneficial but Needs to Be
                        Used More Efficiently in the Collection of Taxes



The IRS changed its process for determining RCP in FY 2005, in conjunction with procedural
changes in installment agreements and the results of the SB/SE Division and OPERA analysis.
Previously, IRS procedures allowed the Collection Statute Expiration Date to be extended for
5 years to obtain a full payment through an installment agreement. Following these guidelines
for the evaluation of offers, the IRS generally did not accept the offer when the taxpayer could
fully pay the tax liability (i.e., the time remaining until the Collection Statute Expiration Date,
plus 5 years).
The IRS analyzed its practice of including the “plus 5 years” in the analysis of the taxpayer’s
ability to make future payments and discontinued that practice. The IRS believes this change
should improve the accuracy of the RCP calculations and the overall quality of offer decisions
and result in more accepted offers.
Also, the IRS is testing a new concept at the COIC sites by taking subsequent collection actions
on accounts for which offers were not accepted. This appears to be a positive step in collecting
tax liabilities and allows for dialog to continue relative to resolving the delinquency with
financial information already obtained. The collections from accounts for which offers were not
accepted may not offer significant financial benefits to the overall collection program; however,
many taxpayers whose offers were not accepted appear to have a desire to resolve their account
problems. The IRS should determine how the information developed in OIC evaluations could
be used to assist taxpayers in resolving their tax accounts.

Recommendation
Recommendation 4: The Commissioner, SB/SE Division, should evaluate the effectiveness
of the COIC sites’ collection efforts on accounts for which offers were not accepted and
determine whether collections from these cases are comparable to results achieved by ACS
collections and whether resources should be used to produce collections on these cases.
       Management’s Response: IRS management agreed with this recommendation. The
       IRS is currently evaluating the use of a Hand-Off Unit at the Brookhaven campus. This
       Unit initiates appropriate collection procedures on rejected or withdrawn cases. The IRS
       will evaluate the effectiveness of this Unit through operational reviews and determine
       whether the Unit should be made permanent.




                                                                                             Page 26
                   The Offer in Compromise Program Is Beneficial but Needs to Be
                           Used More Efficiently in the Collection of Taxes



                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether the Offer in Compromise1 (OIC) program
efficiently and effectively collects tax liabilities that may not be otherwise collected and whether
the taxpayers remain compliant once an offer is accepted.2 During the review, we relied on data
from the Automated Offer in Compromise (AOIC) Database to identify closed offers and the
monitoring status of accepted offers. We evaluated the reasonableness of the data through
comparison with selected information from the Internal Revenue Service (IRS) Collection
Reports 5000-108 (Monthly Report of Offer in Compromise Activity). We also compared
various samples selected throughout the course of our review with information on the AOIC
Database and determined the data were sufficiently reliable for sample selection and inventory
analysis. Additionally, unless otherwise noted, we used judgmental or random sampling
techniques to minimize time and because we did not intend to project the results. To accomplish
this objective, we:
I.      Determined whether the OIC program effectively identifies potential candidates for offer
        acceptance.
        A.       Analyzed data from the AOIC Database and Collection Reports 5000-108 to
                 identify the timeliness with which offer evaluations are completed.
        B.       Evaluated the appropriateness of 187 offers closed in the Centralized Offer in
                 Compromise (COIC) sites and field offer groups. We obtained and evaluated the
                 IRS case files to determine whether correct conclusions were reached and
                 evaluated the accuracy of the financial analyses used to determine equity in assets
                 and future income.
                 1.      Reviewed a judgmental sample of 87 offers (46 accepted, 31 rejected, and
                         10 withdrawn) processed by the COIC sites. The samples of rejected and
                         withdrawn offers were randomly selected from July 2002 closures; they
                         included 31 of 351 rejected offers for which the taxpayers did not exercise
                         appeal rights and 10 of 224 withdrawn offers. We selected a judgmental


1
  Appendix VII includes definitions of terms used in this report.
2
  Since Fiscal Year 1999, we have conducted a series of reviews to evaluate the OIC program. Reports from those
reviews are listed in Appendix VI. The purpose of this review was to provide an overall assessment of the
efficiency and effectiveness of the OIC program. This review includes data and results reported in prior audits of
the OIC program but also presents additional information about the OIC program’s costs and benefits, taxpayer
compliance after terms of the accepted offers are completed, and taxpayer compliance when offers were not
accepted.
                                                                                                           Page 27
                  The Offer in Compromise Program Is Beneficial but Needs to Be
                          Used More Efficiently in the Collection of Taxes



                        sample of 46 of 194 accepted offers awaiting shipment to the designated
                        campuses during our onsite visits in August and October 2002.3
                2.      Reviewed a judgmental sample of 100 offers (50 accepted and 50 rejected)
                        processed by the field offer groups between October 1, 2002, and
                        June 30, 2003. The sample included 50 of the 10,000 offers accepted and
                        50 of the 5,369 offers rejected (the taxpayers did not exercise appeal
                        rights).4
        C.      Determined whether the IRS procedures were accurately and consistently followed
                for 83 processable offers returned to taxpayers.
                1.      Reviewed a random sample of 33 of the 3,502 processable offers returned to
                        taxpayers by the COIC sites in July 2002.5 The sample of returned offers
                        was randomly selected from July 2002 closures.
                2.      Reviewed a random sample of 50 of the 12,844 processable offers returned
                        to taxpayers by the field offer groups between October 1, 2002, and
                        June 30, 2003.6
        D.      Determined whether the Reasonable Collection Potential (RCP) calculation
                realistically represents collections from taxpayers whose offers have been rejected.
                1.      Obtained from the AOIC Database a computer extract of all
                        1,117,629 offers closed between October 1, 1994, and September 30, 2004
                        (a 10-year period).7
                2.      Reviewed a judgmental sample of 100 rejected offers closed between
                        October 1, 2002, and June 30, 2003. We used the sample of 50 cases closed
                        by the field offer groups discussed in Step I.B.2. We reviewed a random
                        sample of 50 of 10,807 rejected offers closed by the COIC sites between
                        October 1, 2002, and June 30, 2003. The sample was identified from the
                        data extract discussed in Step I.D.1. to provide a consistent time period for
                        our sample.



3
  See Appendix VI, report 4. Step I.B.1. was conducted during that review.
4
  See Appendix VI, report 6. Step I.B.2. was conducted during that review.
5
  See Appendix VI, report 4. Step I.C.1. was conducted during that review.
6
  See Appendix VI, report 6. Step I.C.2. was conducted during that review.
7
  The total dispositions (1,114,234) shown on the Collection Reports 5000-108 for FYs 1995 through 2004 do not
equal the total number of offers in our data extract (1,117,629). The difference in the number of dispositions
between these two sources occurred because of the use of cutoff dates to obtain the Collection Reports 5000-108
data and inventory corrections recorded on the AOIC Database. Based on our data validation tests, we determined
the data extract was sufficiently reliable for sample selection and inventory analysis.
                                                                                                        Page 28
                  The Offer in Compromise Program Is Beneficial but Needs to Be
                          Used More Efficiently in the Collection of Taxes



                        a.      Obtained the IRS closed case files and determined the components
                                and amounts of the RCP calculations as determined by the IRS
                                employees.
                        b.      Reviewed the Integrated Data Retrieval System (IDRS) between
                                February 28, 2005, and March 5, 2005, and identified amounts
                                collected after the closing of the offers on the AOIC Database.
                3.      Evaluated proposed IRS changes to the RCP calculation process.
        E.      Analyzed the impact of the COIC program on the IRS’ offer program. We
                evaluated the ratios of disposition types and the length of time required to process
                offers at the COIC sites and field offer groups.
        F.      Reviewed a judgmental sample of 53 of approximately 800 not-processable offers
                on hand at the time of our visits to determine whether processability
                determinations complied with policy. We reviewed 30 offers returned by the
                Memphis COIC site in August 2002 and 23 offers returned by the Brookhaven
                COIC site in September 2002.8
II.    Determined the effectiveness of the offer program in getting taxpayers to remain
       compliant after offers have been accepted.
        A.      Obtained from the AOIC Database a computer extract of all 30,439 accepted OICs
                with a legal disposition date of Fiscal Year (FY) 1999.
        B.      Reviewed a statistical sample of 84 of the 28,018 Doubt As to Collectibility offers
                identified from Step II.A. that were still open in acceptance status9 at the time of
                the computer extract. The sample was based on a 95 percent confidence level, a
                precision level of +4 percent, and an expected error rate of 3.57 percent.10
        C.      Determined whether taxpayers remained compliant after the terms of the offer
                were completed.
                1.      Reviewed a random sample of 245 of the 95,080 accepted offers that were
                        not defaulted by the IRS campus OIC units that monitor offer compliance.
                        The sample was randomly selected from offers closed between
                        October 1, 1994, and December 31, 1998, from the data extract discussed in
                        Step I.D.1.
                        a.      Reviewed the taxpayers’ accounts on the IDRS and determined
                                whether the taxpayers remained compliant with filing and payment


8
  See Appendix VI, report 4. Step I.F. was conducted during that review.
9
  Accepted offers being monitored by the IRS campus OIC units that monitor offer compliance.
10
   See Appendix VI, report 5. Step II.B. was conducted during that review.
                                                                                               Page 29
                The Offer in Compromise Program Is Beneficial but Needs to Be
                        Used More Efficiently in the Collection of Taxes




                           requirements while the offer was pending and after the monitoring
                           period.
       D.     Determined whether collection actions were timely resumed on nonaccepted
              offers.
              1.    Discussed with IRS management the process and procedures for placing
                    nonaccepted offers back into the collection process.
              2.    Reviewed a sample of the 100 rejected offers closed by the COIC sites and
                    field offer groups between October 1, 2002, and June 30, 2003. For this
                    test, we used the cases selected in Step I.D.2.
       E.     Determined the level of taxpayer compliance after offers had been determined to
              be not acceptable (e.g., rejected, returned, or withdrawn).
              1.    Selected a random sample of 93 of the 83,158 nonaccepted processable
                    offers closed on the AOIC Database between October 1, 1994, and
                    December 31, 1998, for taxpayers who did not subsequently have an offer
                    accepted.
              2.    Reviewed the taxpayers’ accounts on the IDRS and determined whether the
                    taxpayers were compliant with filing and payment requirements for the
                    5 years after their offers had been determined to be not acceptable.
III.   Determined the cost and benefits of the offer program for FY 2004.
       A.     Determined the cost of labor used in the evaluation of all offers and the cost of
              labor used in the monitoring of accepted offers.
       B.     Obtained from the AOIC Database a computer extract of all 2,486,190 liability
              adjustments, offer payments, refund recoupments, and collateral payments
              recorded on the AOIC Database as of April 11, 2005. For this data extract, our
              validation testing involved various analyses and a comparison with taxpayer
              account information through the IDRS. We determined the data were sufficiently
              reliable for the purpose of estimating revenue from offer payments, refund
              recoupments, and collateral payments.
              1.    Analyzed the data extract discussed in Step III.B. to identify the revenue
                    secured through offer payments, collateral payments, and refund
                    recoupments for FY 2004.
       C.     Obtained from the AOIC Database a computer extract of all 178,279 payment
              transactions related to the OIC application fee recorded on the AOIC Database as
              of December 13, 2005. For this data extract, our validation testing involved
              various analyses, including a comparison with the AOIC Database data reflecting
                                                                                           Page 30
                     The Offer in Compromise Program Is Beneficial but Needs to Be
                             Used More Efficiently in the Collection of Taxes



                   receipts and dispositions. We determined the data were sufficiently reliable for the
                   purpose of estimating revenue from OIC application fee.
                   1.      Analyzed the data extract discussed in Step III.C. to identify the revenue
                           secured through the OIC application fee for FY 2004.
IV.       Identified historical trends of offer processing, including acceptance rates, and inventory
          fluctuations in conjunction with significant OIC program changes (e.g., implementation of
          the IRS Restructuring and Reform Act of 199811 and implementation of the COIC sites).




11
     Pub. L. No. 105-206, 112 Stat. 685, 765.
                                                                                                Page 31
               The Offer in Compromise Program Is Beneficial but Needs to Be
                       Used More Efficiently in the Collection of Taxes



                                                                               Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Parker Pearson, Director
Amy Coleman, Audit Manager
Darryl Roth, Lead Auditor
Todd Anderson, Senior Auditor
Doris Cervantes, Senior Auditor
Lynn Rudolph, Senior Auditor
Janis Zuika, Auditor




                                                                                        Page 32
              The Offer in Compromise Program Is Beneficial but Needs to Be
                      Used More Efficiently in the Collection of Taxes



                                                                         Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Commissioner, Wage and Investment Division SE:W
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Campus Compliance Services, Small Business/Self-Employed Division SE:S:CCS
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Collection Policy, Small Business/Self-Employed Division SE:S:C:CP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                 Page 33
                       The Offer in Compromise Program Is Beneficial but Needs to Be
                               Used More Efficiently in the Collection of Taxes



                                                                                                                           Appendix IV

        Reasons Offers in Compromise Are Returned to
                          Taxpayers

Our analysis of Internal Revenue Service (IRS) Collection Reports 4196 (Monthly Offer in
Compromise Activity) showed failure to file returns was the most frequent reason for returning
offers to taxpayers. Figure 1 provides the various reasons offers were returned to taxpayers as
not-processable. The total number of reasons recorded exceeds the total number of offers
returned as not-processable because offers can be returned to taxpayers for multiple reasons.
The percentages were calculated by dividing the number of returned offers in each category by
the total number of offers returned as not-processable. Therefore, these percentages exceed
100 percent.
                   Figure 1: Not-Processable Returned Offers Reason Codes -
                              Fiscal Years (FY) 2001 Through 20051
       Not-Processable Reasons              FY 2001           FY 2002           FY 2003           FY 2004           FY 2005              Total
Tax Returns Not Filed                   13,010        80% 22,047        67% 21,752        72% 15,905        41% 10,947        48%    83,661      59%
Fee Not with Offer                            0        0%       0        0%       0        0% 20,687        54% 8,044         35%    28,731      20%
Open Bankruptcy Proceeding               1,149         7% 4,378         13% 4,893         16% 3,501          9% 2,259         10%    16,180      11%
Form 433-A Not Included                     49         0% 2,710          8% 2,855          9% 3,823         10% 2,434         11%    11,871       8%
Previous 2 Quarters of Employment Tax
                                         2,070        13%    2,409      7%    1,969       6%    1,664        4%    1,091      5%      9,203      7%
not Filed and/or Paid
Obsolete Offer in Compromise,
                                            56        0%     3,043      9%    1,137       4%     333         1%     453       2%      5,022      4%
(Form 656)
Obsolete Form 433-A or Form 433-B            0        0%     3,111      9%    1,111       4%     320         1%      92       0%      4,634      3%
Current Employment Tax Deposits Not
                                          697         4%      806       2%     880        3%     694         2%     504       2%      3,581      3%
Timely
Returns Not Filed - Both Spouses              0       0%          0     0%         0      0%    1,020        3%    1,618      7%      2,638      2%
Form 433-B Not Included                     20        0%       210      1%      164       1%      353        1%      466      2%      1,213      1%
Not a Verbatim Duplicate                    10        0%        50      0%       33       0%      125        0%      221      1%        439      0%
Total Reasons Recorded                  17,061              38,764           34,794            48,425             28,129            167,173
Total Not-Processable Offers            16,185              32,897           30,406            38,553             22,713            140,754
Source: Treasury Inspector General for Tax Administration Analysis of IRS Collection Reports 4196.




1
  Form 433-A is a Collection Information Statement for Wage Earners and Self-Employed Individuals. Form 433-B
is a Collection Information Statement for Businesses.
                                                                                                                                         Page 34
                           The Offer in Compromise Program Is Beneficial but Needs to Be
                                   Used More Efficiently in the Collection of Taxes



The primary reason the IRS returned offers after the offers were determined to be processable
was because financial verification was not provided. Figure 2 provides the various reasons
offers were returned to taxpayers. The percentage of total offers returned because financial
verification was not provided substantially declined during FY 2005. The total number of
reasons recorded exceeds the total number of offers returned because offers are sometimes
returned for multiple reasons. Percentages were calculated by dividing the returns in each
category by the total number of offers returned as not-processable. Therefore, these percentages
exceed 100 percent.
          Figure 2: Processable Return Reason Codes - FYs 2001 Through 20052
                Reason                      FY 2001       FY 2002          FY 2003          FY 2004          FY 2005         Total
Financial Verification Not Provided      13,828 49.80% 33,370 66.10% 32,909 67.10% 19,645 60.70%          9,672 48.20% 109,424 60.90%
Returns Not Filed                         4,699 16.90% 5,833 11.60% 4,621    9.40% 2,910   9.00%          1,952  9.70% 20,015 11.10%
Estimated Payments Not Made                   57 0.20% 4,258   8.40% 4,732   9.60% 4,330 13.40%           3,833 19.10% 17,210   9.60%
Missing Periods                           2,503  9.00% 1,816   3.60% 1,271   2.60%    682  2.10%            428  2.10%   6,700  3.70%
No Basis for Compromise                   1,423  5.10% 1,900   3.80% 1,069   2.20%    776  2.40%            585  2.90%   5,753  3.20%
Untimely Tax Deposits                       794  2.90%    968  1.90% 1,033   2.10%    855  2.60%            526  2.60%   4,176  2.30%
Open Bankruptcy Proceeding                  958  3.50%    969  1.90%    804  1.60%    479  1.50%            293  1.50%   3,503  1.90%
Previous 2 Quarters Not Filed/Paid          717  2.60%    782  1.50%    903  1.80%    608  1.90%            458  2.30%   3,468  1.90%
Other Investigations Pending                -    0.00%    304  0.60% 1,053   2.10% 1,131   3.50%            873  4.40%   3,361  1.90%
Form 433-A Missing Information            1,298  4.70%    834  1.70%    618  1.30%    289  0.90%            220  1.10%   3,259  1.80%
To Delay Collections                        423  1.50%    416  0.80%    749  1.50%    783  2.40%            844  4.20%   3,215  1.80%
Obsolete Form 656                         1,534  5.50% 1,035   2.00%    296  0.60%     75  0.20%             60  0.30%   3,000  1.70%
Erroneous Periods Included                1,161  4.20%    848  1.70%    448  0.90%    242  0.70%            166  0.80%   2,865  1.60%
Form 433-A Not Included                   1,208  4.40%    952  1.90%    400  0.80%    177  0.50%             90  0.40%   2,827  1.60%
Offer Amount Not Entered                  1,138  4.10%    535  1.10%    293  0.60%    118  0.40%             76  0.40%   2,160  1.20%
Form 433-B Not Included                     982  3.50%    567  1.10%    233  0.50%    165  0.50%            103  0.50%   2,050  1.10%
Resubmission of Prior Rejected or
                                             2   0.00%    362   0.70%     511    1.00%     583    1.80%     472   2.40%   1,930      1.10%
Returned Offer
Financial Verification Nonliable Party      -    0.00%    177   0.40%      758   1.50%      520   1.60%      274  1.40%   1,729      1.00%
Other                                     3,965 14.30% 2,475    4.90%    1,842   3.80%    1,716   5.30%    2,363 11.80% 12,361       6.90%
Total Reasons Recorded                   36,690        58,401           54,543           36,084           23,288        209,006
Total Processable Returned Offers        27,751        50,492           49,079           32,358           20,068        179,748
Source: Treasury Inspector General for Tax Administration Analysis of IRS Collection Reports 4196.




2
  In our analysis, we grouped return reasons in the category “Other” when the FYs 2001 through 2005 percentage
totals were less than 1 percent.
                                                                                                                                        Page 35
                 The Offer in Compromise Program Is Beneficial but Needs to Be
                         Used More Efficiently in the Collection of Taxes



Figure 3 provides an example of the Payment Options Comparison Chart provided during a
June 2005 training topic. The Chart shows various installment agreement alternatives and the
deferred offer payment basis. This information could be beneficial to taxpayers and tax
practitioners in determining which payment alternative to use.
                       Figure 3: Payment Options Comparison Chart




Source: Tax Talk Today, Copyright © 2000 - 2006 by L&M Production Design Group, Inc..




                                                                                        Page 36
1                      The Offer in Compromise Program ls Beneficial but Needs to Be
<
                              Used More Efficiently in the Collection of Taxes
         .--

                                                                                                     Appendix V

        C o m ~ s o of
                    n Centralized Offer in Compromise Sites
                       With Field Offer Groups

    We reviewed a judgmental sample of 187 offers closed by the Internal Revenue Service (IRS)
    Centralized Offer in Compromise (COIC) sites and field offer groups. We identified financial
    analysis errors in 59 of the 187 cases reviewed. Figure 1 shows the errors by IRS function and
    the total number of offers containing a type of error. We identified a higher error rate in the field
    offer groups, where more experienced employees (revenue officers) conduct the offer
    evaluations. It is possible this was due to the more complex nature of offers worked by the field
    offer groups.
                                                                           -
                        Figure I : Financial Analysis Errors by IRS Function'




                                                                                                          --
                     Error Rate                                            25%        37%         32%
               Source: Treasury Inspector Generalfor Tmc Administration (TIGTA) review of 187 closed ofle~


    1
     National standards are used for food and clothing expenses. Local standards are used for housing and utilities
    expenses and transportation expenses (e.g., ownership and operating expense of automobiles).
                                                                                                               Page 37
                The Offer in Compromise Program Is Beneficial but Needs to Be
                        Used More Efficiently in the Collection of Taxes



Since implementation of the COIC concept in August 2001, the IRS inventory of offers has
declined. Figure 2 shows the total offers in ending inventory declined from approximately
95,000 in Fiscal Year (FY) 2001 to approximately 30,000 in FY 2005. For the same period, the
total offers in ending inventory of the field offer groups declined from approximately 81,000 in
FY 2001 to approximately 17,000 in FY 2005.
                Figure 2: Ending Inventories - FYs 2001 Through 2005

                          100,000


                           80,000


                           60,000


                           40,000


                           20,000


                               -
                                       FY 2001   FY 2002   FY 2003   FY 2004     FY 2005

                COIC                   13,715    29,237    29,155     19,649      13,258
                Field Of f er Groups   81,216    45,528    36,172     27,464      16,837
                Total                  94,931    74,765    65,327     47,113      30,095


        Source: TIGTA analysis of Collection Reports 5000-108 (Monthly Report of Offer in Compromise
        Activity).




                                                                                                  Page 38
                   The Offer in Compromise Program Is Beneficial but Needs to Be
                           Used More Efficiently in the Collection of Taxes



FY 2002 was the first full year of the COIC concept. Figure 3 shows the majority of processable
offers worked by the COIC sites (ranging from 82 percent in FY 2002 to 92 percent in FY 2005)
were processed in 6 or fewer months. However, offers processed by the field offer groups took
longer to process. In FY 2002, approximately 37 percent took longer than 12 months to process;
however, this percentage had declined to approximately 23 percent in FY 2005. Some of the
time spent on processing cases in the field offer groups could be attributable to the backlog of
offers that developed prior to implementation of the COIC concept.
         Figure 3: Timeliness of Offer Dispositions - FYs 2002 Through 20052

                                  100%

                                   80%

                                   60%

                                   40%

                                   20%

                                    0%
                                           FY 2002 FY 2003 FY 2004 FY 2005 FY 2002 FY 2003 FY 2004 FY 2005
                                                           COIC                           Field Offer Groups

            Over 12 Months                   32      413          409    358     28,392   16,393    14,246     8,381
            More than 6 Months-12 Months    5,952   7,831     3,876     2,259    33,924   21,661    19,757     15,534
            0 - 6 Months                   26,467   47,400    38,827    29,647   15,401   12,714    8,284      12,451

          Source: TIGTA analysis of Collection Reports 5000-108.




2
 For FY 2005, the IRS offer data include not-processable offers in the age of dispositions. For comparability with
prior fiscal years, we excluded not-processable offers from the number of offers disposed of in 6 or fewer months.
                                                                                                                        Page 39
                  The Offer in Compromise Program Is Beneficial but Needs to Be
                          Used More Efficiently in the Collection of Taxes



While the overall inventory and timeliness of case actions show improvement, few offers are
accepted. Figure 4 shows processable dispositions at the COIC sites and field offer groups. In
the analysis, we included offers closed by appeal (whether accepted or rejected) as “Appealed.”
Acceptance rates were lower for offers evaluated at the COIC sites than for offers evaluated at
the field offer groups. Returned offer rates were generally higher at the COIC sites; however, the
COIC sites conduct case-building activities, including requests for information, for some offers
that are fully evaluated at the COIC sites and offers that are eventually sent to field offer groups.
         Figure 4: Processable Offer Dispositions - FYs 2002 Through 2005
           100%                6%
                     8%                                             6%
                                        3%                                   14%        13%       14%
                                    |




            90%                              21%
                                                         28%       14%
            80%                                                              13%        13%       13%
                                              6%
            70%                                           8%
                               57%                                 33%
            60%
                     76%                                                     34%        34%       33%
                                             41%         25%
            50%
            40%                                                    15%
                                                                             13%        13%       14%
            30%                                          23%
            20%                25%           24%
                                                                   32%                  27%
                     8%                                                      26%                  26%
            10%                                          16%
                     8%        10%            8%
             0%
                   FY 2002   FY 2003     FY 2004        FY 2005   FY 2002   FY 2003   FY 2004    FY 2005

                                     COIC                                   Field Offer Groups
                           Accepted          Rejected     Returned       Withdrawn    Appealed

        Source: TIGTA analysis of Collection Reports 5000-108.




                                                                                                           Page 40
                   The Offer in Compromise Program Is Beneficial but Needs to Be
                           Used More Efficiently in the Collection of Taxes



From FYs 2002 through 2005, approximately 43,000 (12 percent) of 370,000 processable offers
were closed by the IRS Appeals function. Figure 5 shows the result of the IRS Appeals function
offer evaluation based on where the offers were initially evaluated. The Appeals function
accepted approximately 14,074 (32 percent) of the 43,397 offers it closed.
                  Figure 5: Offers Accepted in the IRS Appeals Function -
                                  FYs 2002 Through 2005

                   100%

                    75%
                                          14,324                         14,999                    29,323
                    50%

                    25%
                                          6,836                          7,238                     14,074
                        0%
                                      COIC                      Field Offer Groups                 Total

                                                              Accepted    Rejected

        Source: TIGTA analysis of Collection Reports 5000-108.

Figure 6 shows the ratio of total dollars accepted to total dollars compromised was higher for
offers accepted in the Appeals function (18 percent) than for offers accepted in the compliance
functions (i.e., the COIC sites and field offer groups) (14 percent). In addition, the average offer
amount accepted was approximately $19,000 in the Appeals function versus approximately
$12,000 in compliance functions.
     Figure 6: Analysis of Accepted Offers - FYs 2002 Through 2005
                                          COIC                           Field Offer Groups                             Total
                             Compliance            Appealed         Compliance          Appealed           Compliance           Appealed
Offers Accepted                 16,690               6,836                 58,572              7,238            75,262               14,074
Liabilities              $ 662,297,572       $ 325,486,919        $ 5,696,677,242    $ 1,170,454,652   $ 6,358,974,814      $ 1,495,941,571
Offer Amount             $  83,922,119       $ 59,633,126         $ 788,032,769      $ 213,620,185     $ 871,954,888        $ 273,253,311
Average Offer Amount     $       5,028       $       8,723        $        13,454    $        29,514   $        11,586      $        19,415
Offer Amount by
                                13%                  18%                 14%              18%                 14%                 18%
Liability Compromised
Source: TIGTA analysis of Collection Reports 5000-108.




                                                                                                                                  Page 41
               The Offer in Compromise Program Is Beneficial but Needs to Be
                       Used More Efficiently in the Collection of Taxes



                                                                             Appendix VI

        Related Treasury Inspector General for Tax
               Administration Audit Reports

1. More Taxpayers Can Benefit From the New Offer in Compromise Provisions (Reference
   Number 2000-40-093, dated June 2000).
2. The Internal Revenue Service Needs to Consistently Use Special Circumstances in the Offer
   in Compromise Program (Reference Number 2001-30-096, dated May 2001).
3. The Internal Revenue Service Needs to Take Timely and Appropriate Closing Actions on
   Offers in Compromise (Reference Number 2002-30-181, dated September 2002).
4. Continued Progress Is Needed to Improve the Centralized Offer in Compromise Program
   (Reference Number 2003-30-182, dated September 2003).
5. Monitoring of Accepted Offers in Compromise Is Generally Effective, but Some Improvement
   Is Needed (Reference Number 2004-30-043, dated January 2004).
6. Improvements Are Needed in the Timeliness and Accuracy of Offers in Compromise
   Processed by Field Offer Groups (Reference Number 2005-30-013, dated December 2004).
7. The Implementation of the Offer in Compromise Application Fee Reduced the Volume of
   Offers Filed by Taxpayers at All Income Levels (Reference Number 2005-30-096, dated
   June 2005).
8. High-Risk Work Is Selected From the Unassigned Delinquent Account Inventory, but Some
   Unassigned Accounts Need Management’s Attention (Reference Number 2006-30-030, dated
   February 2006).




                                                                                      Page 42
                The Offer in Compromise Program Is Beneficial but Needs to Be
                        Used More Efficiently in the Collection of Taxes



                                                                                Appendix VII

                                Glossary of Terms

Area Office – A geographical organizational level of the Internal Revenue Service (IRS) Small
Business/Self-Employed Division.
Automated Collection System (ACS) – A telephone contact system through which telephone
assistors collect unpaid taxes and secure tax returns from delinquent taxpayers who have not
complied with previous notices.
Automated Offer in Compromise Database – The IRS database used to monitor Offer in
Compromise (OIC) case processing; it was designed to control, track, and monitor offers.
Business Master File – The IRS database that consists of Federal tax-related transactions and
accounts for businesses. These include employment taxes, income taxes on businesses, and
excise taxes.
Campus – The data processing arm of the IRS. The campuses process paper and electronic
submissions, correct errors, and forward data to the Computing Centers for analysis and posting
to taxpayer accounts.
Centralized Offer in Compromise – The IRS units located in the Brookhaven, New York, and
Memphis, Tennessee, Campuses that complete initial processing and work less complicated
offers to completion.
Collateral Payment – Payment from a collateral agreement. A collateral agreement enables the
Federal Government to collect funds in addition to the amount actually secured by the offer or to
add additional terms not included in the standard Offer in Compromise (Form 656) agreement,
thereby recouping part or all of the difference between the amount of the offer or additional
terms of the offer and the liability compromised.
Collection Due Process – Allows taxpayers a right to a hearing before the IRS Appeals function
regarding proposed collection enforcement actions or filed Notices of Federal Tax Lien.
Collection Field function (CFf) – The unit in the field offices consisting of revenue officers
who handle personal contacts with taxpayers to collect delinquent accounts or secure unfiled tax
returns.
Collection Information Statement – A financial statement listing assets, income, liabilities, and
expenses submitted by the taxpayer.
Collection Statute Expiration Date – A time period established by law to collect taxes; it is
normally 10 years from the date of the tax assessment.


                                                                                         Page 43
                The Offer in Compromise Program Is Beneficial but Needs to Be
                        Used More Efficiently in the Collection of Taxes



Doubt As to Collectibility – Basis for acceptance of an offer when there is doubt that the tax can
be paid in full.
Field Offer Group – The IRS units staffed with experienced revenue officers, known as offer
specialists, that work more complicated offers to completion.
Financial Statement – A statement listing assets, income, liabilities, and expenses.
Full-Time Equivalent (FTE) – A measure of labor hours in which 1 FTE is equal to 8 hours
multiplied by the number of compensable days in a particular fiscal year. For Fiscal Year 2004,
1 FTE was equal to 2,096 staff hours.
Income Certification for Offer in Compromise Application Fee (Form 656-A) – The IRS
form used by taxpayers to request an exception to the OIC application fee because of income.
Individual Master File – The IRS database that maintains transactions or records of individual
tax accounts.
Inequitable Treatment – Due to exceptional circumstances, collection of the tax liability in full
would undermine public confidence that the tax laws are being administered in a fair and
equitable manner.
Integrated Data Retrieval System – The IRS computer system capable of retrieving or
updating stored information; it works in conjunction with taxpayer account records on the Master
File.
Master File – The IRS database that stores various types of taxpayer account information. This
database includes individual, business, and employee plans and exempt organizations data.
Not-Processable – A disposition category used by the IRS for an offer in which the taxpayer
does not meet one or more of the minimum established criteria for offer consideration.
Offer in Compromise – An agreement between a taxpayer and the Federal Government that
settles a tax liability for payment of less than the full amount owed. The IRS has the authority to
settle or compromise Federal tax liabilities by accepting less than full payment under certain
circumstances. This is accomplished through an Offer in Compromise (Form 656).
IRS Oversight Board – An independent body responsible to provide the IRS with long-term
guidance and direction.
Poverty-Level Guidelines – A poverty measure established by the Department of Health and
Human Services.
Processable Disposition – Offers that are closed after the IRS determined the taxpayer met the
minimum established criteria for offer consideration. This includes offers that are accepted,
rejected, withdrawn, or returned to taxpayers.



                                                                                           Page 44
                The Offer in Compromise Program Is Beneficial but Needs to Be
                        Used More Efficiently in the Collection of Taxes



Processable Return – Offers that are returned to taxpayers closed after the IRS determined the
taxpayers met the minimum established criteria for offer consideration.
Queue – An automated holding file for unassigned inventory of low-priority delinquent cases
that the Collection function does not have enough resources to immediately assign for contact.
Reasonable Collection Potential (RCP) – The amount the IRS determines could reasonably be
collected from the taxpayer. The RCP equals the total realizable value of the taxpayer’s assets
plus future income.
Refund Recoupment – The refund for the year in which an OIC was accepted. Part of the OIC
agreement is that the taxpayer agrees to allow the IRS to keep any tax refund for the year in
which the OIC was accepted.
Revenue Officer – Employees in the CFf who attempt to contact taxpayers and resolve
collection matters that have not been resolved through notices sent by the IRS campuses
(formerly known as service centers) or the ACS.
Tax Period – Refers to each tax return filed by the taxpayer for a specific period (year or
quarter) during a calendar year for each type of tax.
Solely to Delay – A processable return reason referring to offers that were submitted for the
purpose of avoiding or delaying collection activity. This may include the resubmission of an
offer after a prior offer has been returned or rejected and the new offer is essentially the same as
the prior returned or rejected offer.
Shelved Accounts – Delinquent unpaid accounts that have been taken out of Collection function
inventory because they are lower priority than other available cases.
Special Circumstance – The facts and circumstance surrounding the taxpayer’s financial
situation, such as advanced age or serious illness.




                                                                                              Page 45
   The Offer in Compromise Program Is Beneficial but Needs to Be
           Used More Efficiently in the Collection of Taxes



                                                   Appendix VIII

Management’s Response to the Draft Report




                                                           Page 46
The Offer in Compromise Program Is Beneficial but Needs to Be
        Used More Efficiently in the Collection of Taxes




                                                        Page 47
The Offer in Compromise Program Is Beneficial but Needs to Be
        Used More Efficiently in the Collection of Taxes




                                                        Page 48
The Offer in Compromise Program Is Beneficial but Needs to Be
        Used More Efficiently in the Collection of Taxes




                                                        Page 49
